                      U.S. COMMODITY FUTURES TRADING COMMISSION
                                            Three Lafayette Centre
                                 1155 21st Street, NW, Washington, DC 20581
                                         Telephone: (202) 418-5000
                                          Facsimile: (202) 418-5521
                                                www.cftc.gov



   Office of the
Inspector General
                                     MEMORANDUM




      TO:             Timothy G. Massad, C hairman             .n '- Q
      FROM:           A. Roy Lavik, Inspector General    0 \ ~ d--
      DATE:           October 0 I, 20 14

      SUBJECT:        CFTC-O IG Performance A udit- Managemenl 's Use of Information
                      Technology Resources in Support of its Strategic Plan and Regulatmy
                      Responsibilities

       Attached is the Commodity Futures Trading Commission ' s O ffi ce of the Inspector
       General 's (OIG) audit report o n

       Management's Use of IT Resources in Support of its Strategic Plan and Regulatory
       Responsibilities.

       My office contracted with an Independent Public Acco unting (IPA) firm to conduct this
       performance audit. We monitored the IPA ' s work and concur with the results of this audit.

       Should you have any questio ns regarding this report, please do not hesitate to contact me.
       I appreciate the courtesy and cooperati on that the staff in the Office of Data and
       Technology extended to my staff and contractors during thi s audit.
              Clifton LarsonAllen



U.S. COMMODITY FUTURES TRADING COMMISSION



                             Report on
Management's Use of Information Technology Resources in Support
      of its Strategic Plan and Regulatory Responsibilities
                                                 TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................... 1
BACKGROUND ......................................................................................................................... 1
SUMMARY OF RESULTS ......................................................................................................... 1
SCOPE AND METHODOLOGY ................................................................................................. 3
MANAGEMENT'S RESPONSE ................................................................................................. 5




ABBREVIATIONS

CFTC                          U.S. Commodity Futures Trading Commission
CLA                           CliftonlarsonAIIen LLP
CEA                           Commodity Exchange Act
DFA                           Dodd-Frank Wall Street Reform and Consumer Protection Act
FY                            Fiscal Year
OIG                           Office of the Inspector General
ODT                           Office of Data and Technology
IT                            Information Technology
           .
INTRODUCTION

The U.S. Commodity Futures Trading Commission (CFTC) was created by the Congress in
1974 as an independent agency with a mandate to regulate commodity futures and option
markets in the United States. Its mission is to protect market participants and the public from
fraud, manipulation, abusive practices, and systemic risk related to derivatives-both futures
and swaps-and to foster transparent, open, competitive, and financially sound markets. In
carrying out its mission and to promote market integrity, CFTC polices the derivatives markets
for various abuses and works to ensure the protection of customer funds. The agency also
seeks to lower the risk of the futures and swaps markets to the economy and the public. CFTC's
fiscal years (FYs) 2011, 2012, and 2013 total budgetary resources from its audited financial
statements approximated $230 million, $325 million, and $308 million, respectively.

CliftonLarsonAIIen LLP (CLA) was engaged by CFTC's Office of the Inspector General {OIG) to
conduct an audit of CFTC management's use of information technology {IT) resources in
support of its strategic plan and regulatory responsibilities under the Commodity Exchange Act
(CEA) and Dodd-Frank Wall Street Reform and Consumer Protection Act (DFA). The objective
of this audit was to determine the highest IT priorities documented in CFTC's draft IT acquisition
plan and spend plans for FYs 2011 through 2013. In addition, we reviewed the various
categories the agency targeted for spending (i.e. IT advisory and assistance services, including
new software development for market surveillance, IT supplies and materials, IT equipment
operations and maintenance, etc.); evaluated the consistency of the prioritized IT activities with
CFTC's strategic plan; and determined whether the deliverables associated with these IT
projects were on schedule to meet contract objectives for FY 2011 through 2013. Our audit is
limited to the spending prioritization specified in CFTC's draft acquisition plan on IT for the FYs
2011 through 2013.

BACKGROUND

CFTC's Office of Data and Technology (ODT) has primary responsibility for establishing and
executing technology and data management support for CFTC's market and financial oversight,
surveillance, enforcement, legal, and public transparency activities. ODT also provides general
network, communication, storage, computing, and information technology management
infrastructure and services.

SUMMARY OF RESULTS

Our audit found that CFTC management's use of funds targeted for the highest priority was
generally consistent with its draft IT strategic plan and spend plans as updated for FY 2011
through 2013. Our analysis of a representative sample of contracts showed that CFTC
management monitored the performance of their contractors in accordance with those contracts'
milestone deliverables in support of its CFTC strategic goals. In addition, we observed that the
ODT spent over 63% of its IT budget on IT advisory and assistance services each year from FY
2011 through 2013. On a sample basis, we reviewed the largest contracts covering
approximately 57%, 60% and 49°A» of the total IT spending for FY 2011, FY 2012, and FY 2013,
respectively, and their related task orders included in the aforementioned category. We found
the following:




                                                1
 FY 11
 Staff augmentation and hardware enhancements as well as software licenses represented
 approximately 27% of the contracts reviewed. The remaining 73%, represented software
 modernization and surveillance enhancements.

 FY12
 Staff augmentation and hardware enhancements as well as software licenses represented
 approximately 42% of the contracts reviewed. The remaining 58% represented software
 modernization and surveillance enhancements.

 FY13
 Staff augmentation and hardware enhancements as well as software licenses represented
 approximately 50°/o of the contracts reviewed. The remaining 50°k represented software
 modernization and surveillance enhancements.

 The dollar and percentage breakout of CFTC's IT spending between the two largest IT
 categories: staff augmentation, hardware enhancements and software licenses, and software
 modernization and surveillance enhancements are shown in Table 1.

 Table 1: CFTC IT Spending, Fiscal Years (FYs) 2011,2012 and 2013 (unaudited)

                               Percentage                Percentage                Percentage·
                  'FY2011                    FY2012                    FY 2013
                                 of Total                 ofTot~l                  .. ofTotal
                   Amount                    Amount                    Amount
                                Spending                 Spending                    Spending ·
Staff
augmentation,
hardware
                   5,891,775      27°/o     11,447,971      42°k      10,408,392      50%
enhancements,
and software
licenses
Software
modernization
and               15,848,809      73%       15,748,465      58°k      10,368,493      50%
surveillance
enhancements
Total
Spending          21,740,584     1000_4,    27,196,436     1000_4,    20,776,885      100o/o
Analyzed
Total
Obligations for   37,853,408                45,404,675                42,010,035
ODT
%evaluated        57°k                      600!{,                    49°k

 Source: CFTC Office of Data & Technology Actual Obligations- FY 2011, 2012 and FY 2013
 Information Technology Budget, unaudited data.




                                                2
Other Observation (unaudited)


Table 2: CFTC information technology resources appropriated and obligated by fiscal
year (unaudited)

                                 FY 11                      FY12                    FY 13
Appropriations*               202,675,000                205,294,000             205,294,000
Appropriation for IT
                             37,200,000***               55,000,000               55,000,000
investments

Obligated:
   Operations                  37,853,408                45,404,675               42,010,035
   Other**                      253 016                    322.784                 100 504
Total Obligations              38,106,424                45,727,459               42,110,539


* Amounts are specific to the original pubic law and do not include rescissions, adjustments, etc.
** This category includes staff training, incentive awards travel, etc.
***Public law states "that not less than $37.2 million shall be for the highest priority information
technologies of the Commission." The aforementioned amount represents the lowest amount
available to obligate. However, CFTC had the authority to obligate additional funding for IT
efforts.

Source: CFTC ODT Actual Obligations and Expenditures detail by fiscal year, unaudited data.
Also, the amounts reported as appropriated are pursuant to CFTC's appropriations for each
fiscal year.

The total full time equivalents and the related salaries and expenses to carry out the ODT IT
strategy and objectives by fiscal year are shown in Table 3.

Table 3: CFTC Full-Time Equivalents (FTEs)

                         FY 2011                     FY 2012                FY 2013
ODT personnel            80*                         83*                    83*
Salaries and
                         12,259,889                  14,602,091             15,017,021
Expenses

Source: *Fiscal Year's 2013, 2014 and 2015 President's Budget, unaudited data

SCOPE AND METHODOLOGY

Our audit was limited to evaluating CFTC management's use of its IT resources in relation to its
draft IT acquisition plan and spend plans for FYs 2011 through 2013. We reviewed CEA and
DFA provisions, as well as CFTC's draft IT acquisition plan, IT spend plans, and IT policies and
procedures, including the Project Management Life Cycle and related narratives and flowcharts.
In addition, we selected a sample of contracts from FYs 2011 through 2013 to evaluate
evidence of CFTC management's monitoring of the agency's performance during the target
period in support of specific IT objectives. We interviewed key officials within ODT about




                                                 3
planning and executing the IT investment strategy in relation to legislation such as CEA, DFA,
and CFTC's strategic plan and other CFTC guidance.

We conducted this performance audit in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusion based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our conclusion.

This report is intended solely for the information and use of CFTC's management and OIG, and
is not intended to be, and should not be, used by anyone other than these specified parties.




Calverton, Maryland
September 8, 2014




                                                4
MANA.GEMENT'S RESPONSE


                          U.S. COMMODITY FUTURES TRADING COMMISSION
                                                Three Lafayette Centre
                                     1155 21st Street, NW, Washington, DC 20581
                                             Telephone: (202) 418-5000
                                              Facsimile: (202) 418-5521
                                                    www.cffc. gov



   Office of Data & Technology

                                            MEMORANDUM


              ELECTRONIC MAIL

               TO:            A. Roy Lavik, Inspector General

               FROM:          Jotm L. Rogers, Chief Infonnation Officer
               DATE:          September 30,2014
               SUBJECT:       CFTC OIG Report on Managemenfs Use oflnfonnation Tectmology
                              Resomces in Support of its Strategic Plan and Regulatory
                              Responsibilities


                 The Office of Data and Teclmology concurs with the results of the report and will
         continue to prioritize the use of infonnation tectmology (IT) resources in accordance with CFTC
         strategic and CFTC IT strategic plans.




                                                       5
